    DOD REVIEW OF FLIGHT SAFETY CRITICAL THREADED
             FASTENERS AND COMPONENTS


Report No. D-2001-150                      June 25, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DCMA                  Defense Contract Management Agency
DLA                   Defense Logistics Agency
FSC                   Flight Safety Critical
NSN                   National Stock Number
USD(AT&L)             Under Secretary of Defense for Acquisition,
                        Technology, and Logistics
                        Office of the Inspector General, DoD
Report No. D-2001-150                                                         June 25, 2001
   (Project No. D2000CK-0197)

                DoD Review of Flight Safety Critical Threaded
                        Fasteners and Components

                                 Executive Summary

Introduction. This audit was conducted in response to allegations made to the Defense
Hotline in October 1999, that the DoD acquisition and quality assurance procedures
allowed significant amounts of dimensionally nonconforming flight safety critical
threaded fasteners and components into the DoD inventory. Similar allegations were
made to the Under Secretary of Defense for Acquisition, Technology, and Logistics in
April 1998 and October 1999. In response to the allegations, the Under Secretary
initiated a “Joint Aerospace Threaded Fasteners/Components Review,” of flight safety
critical fasteners and components used by the Services. As a result of the review, the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
concluded on February 15, 2000, that DoD does not have a flight safety problem from
nonconforming fasteners and components. We began our audit in April 2000 after the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics had
finished their review and reported their results. This report discusses the adequacy of the
Under Secretary of Defense for Acquisition, Technology, and Logistics review as it
relates to the reliability of flight safety critical threaded fasteners and components in the
DoD inventory. As of September 30, 2000, there were about 833 flight safety critical
threaded fastener national stock numbers in the DoD inventory. We were unable to
readily determine the number of flight safety critical threaded component national stock
numbers in the DoD inventory.

Objectives. The overall audit objective was to determine whether the DoD “Joint
Aerospace Threaded Fasteners/Components Review,” February 15, 2000, adequately
examined flight safety critical threaded fasteners and components used by the Services.
See Appendix A for a discussion of the audit scope and methodology.

Results. The DoD Review was not comprehensive enough to support the conclusion that
no flight safety problem existed with nonconforming fasteners and components in the
DoD inventory. DoD only tested a sample of 19 different flight safety critical threaded
fastener national stock numbers available in the Air Force inventory out of the 350 used
by the Air Force and tested none of the flight safety critical threaded components used by
the Air Force. The Air Force sample showed that 10 of the 19 national stock numbers
tested, or 53 percent, had nonconforming flight safety critical threaded fasteners. Further,
the review report did not disclose that the chief engineers responses to the Air Force letter
on form, fit, and function on nonconforming fasteners showed that three of the six
weapons systems chief engineers would not recommend accepting the nonconforming
fasteners for use on their weapon system. DoD did not test any of the flight safety critical
threaded fastener national stock numbers or any flight safety critical components in the
Defense Logistics Agency, the Army, and the Navy inventories. In addition, although the
quality assurance procedures used by the Defense Logistics Agency and the Services
were reviewed, the implementation and results of those procedures were not verified to
determine if they operated as intended. For details on the audit results, see the Finding
section of the report.
Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics develop uniform sampling and testing plans,
test samples of flight safety critical threaded fasteners and components, document
justifications for accepting tested nonconforming flight safety critical threaded fasteners
and components, and analyze Defense Logistics Agency and the Services processes for
accepting flight safety critical threaded fasteners and components.

Management Comments. The Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics reaffirmed the goal of assuring that the
Department does not have a safety of flight problem related to the thread geometry of
flight safety critical fasteners or components. However, he noted that the review of
historical data did not identify a single incident or deficiency related to thread geometry
of flight safety critical fasteners or components. The Principal Deputy therefore did not
concur with the need to conduct further testing, but stated that the Joint Aeronautical
Commanders Group has an ongoing effort to examine acquisition and quality assurance
procedures for accepting flight safety critical items. A discussion of management
comments is in the Finding section of the report, and the complete text is in the
Management Comments section.

Audit Response. We disagree with the Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics position on testing. We do not believe that a
review of historical data from incident reports was sufficient basis for concluding there
were no potential problems. Only 19 of 833 (2 percent) of the flight safety critical
threaded fastener national stock numbers were tested, and the review did not sample or
test any flight safety critical threaded fasteners in the Defense Logistics Agency, Army,
or Navy inventories nor any of the flight safety critical components. Most importantly,
there were numerous nonconformances in just the few items tested, raising the distinct
possibility that further testing would reveal more nonconformances. Thus, we believe
that more needs to be done to ensure the integrity of the process used for acquiring the
critical threaded fasteners and components.

We believe that the Joint Aeronautical Commanders Group tasking should be expanded
to require more testing along with an analysis of the adequacy of the quality assurance
procedures for accepting flight safety critical threaded fasteners and components. We
request that the Under Secretary of Defense for Acquisition, Technology, and Logistics
reconsider his position on the report recommendations and provide additional comments
on the final report by August 22, 2001.




                                             ii
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                        1
     Objectives                                                        2

Finding
     Flight Safety Critical Threaded Fasteners and Components           3

Appendixes
     A. Audit Process                                                   9
          Scope and Methodology                                         9
          Prior Coverage                                               10
     B. Air Force Test Plan, Sample and Test Results                   11
     C. Report Distribution                                            14

Management Comments
     Principal Deputy Under Secretary of Defense for Acquisition and
        Technology                                                     17
Background
    This audit was conducted in response to allegations made in October 1999, to the
    Defense Hotline, that the DoD acquisition and quality assurance procedures
    allowed significant amounts of dimensionally nonconforming flight safety critical
    (FSC) threaded fasteners and components (hereafter, referred to as FSC threaded
    fasteners and components) into the DoD inventory, resulting in flight safety
    hazards. Similar allegations were made to the Under Secretary of Defense for
    Acquisition, Technology, and Logistics (USD[AT&L]) in April 1998 and October
    1999. In response to the allegations, the USD(AT&L) initiated a “Joint
    Aerospace Threaded Fasteners/Components Review.” The Office of the
    USD(AT&L) concluded on February 15, 2000, that DoD does not have a flight
    safety problem with dimensionally nonconforming fasteners and components.
    We began our audit in April 2000 after the Office of the USD(AT&L) had
    finished their review and reported their results.

    Flight Safety Critical Threaded Fasteners and Components. Flight safety
    critical threaded items used in aerospace and other high technology applications
    consist of fasteners and components. A FSC threaded fastener is a nut or bolt,
    whose failure, malfunction, or absence could cause a catastrophic failure resulting
    in loss or serious damage to the aircraft. A FSC threaded component is a part of
    an assembly or combination of parts and subassemblies mounted together whose
    failure, malfunction or absence could cause a loss or serious damage to an aircraft
    or serious injury to the occupants.

    As of September 30, 2000, the DoD inventory consisted of about 833 FSC
    threaded fastener national stock numbers (NSNs). We were unable to readily
    determine the number of FSC threaded component NSNs in the DoD inventory.
    Of the 833 NSNs, the Defense Logistics Agency (DLA) procured and managed
    742 or about 90 percent of the DoD inventory. The Army procured and managed
    90 FSC threaded fastener NSNs or 10 percent of the DoD inventory. The Navy
    relied on DLA to purchase and manage all but one FSC threaded fastener NSN
    that they used. The Air Force relied on DLA to purchase and manage all of the
    FSC threaded fasteners and components it used.

    DoD Threaded Fastener/Component Review. In response to the April 1998
    and October 1999 allegations, USD(AT&L) initiated a joint review with DLA and
    the Services to assess quality assurance procedures associated with the acquisition
    of FSC threaded fasteners and components, and the testing requirements of
    Military Standard 8879C (MIL-S-8879C). The DoD review included a sample of
    tested FSC threaded fasteners that were bought by DLA and in the Air Force
    inventory, and the procurement and quality assurance procedures used by DLA,
    the Army, the Navy and the Air Force. The DoD review also included the
    Services’ mishap and deficiency reports, and aircraft incidents reported in the
    Government and Industry Data Exchange Program for the past 5 years.

    Military Standard 8879C. Military Standard 8879C was the specific threaded
    fastener characteristic and measurement standard used to verify compliance of
    threaded fasteners to design specifications. On May 14, 1997, MIL-S-8879C was
    determined as not applicable for purchases of parts that were included in



                                         1
     new weapon system designs. However, any reprocurements of parts that were
     originally purchased using MIL-S-8879C, required the standard to be cited in
     follow-on acquisition documents.

Objectives
     The audit objective was to determine whether the DoD “Joint Aerospace
     Threaded Fasteners/Components Review,” February 15, 2000, adequately
     examined flight safety critical threaded fasteners and components used by the
     Services. See Appendix A for a discussion of the audit scope and methodology.




                                        2
           Flight Safety Critical Threaded Fasteners
           and Components
           The DoD “Joint Aerospace Threaded Fasteners/Components Review,” did
           not adequately examine FSC threaded fasteners and components used by
           the Services. The review was inadequate because DoD only tested a
           sample of 19 FSC threaded fastener NSNs available in the Air Force
           inventory. The review did not test any FSC threaded fasteners in the
           DLA, Army, or Navy inventories. The FSC threaded component NSNs in
           the DLA and Service inventories were not tested. In addition, the quality
           assurance procedures used by DLA and the Services were not verified as
           part of the DoD review. Further, the review report did not explain that
           three of the six weapons systems chief engineers would not recommend
           accepting the identified nonconforming fasteners for use on their weapon
           system. The DoD review was not comprehensive enough to support the
           conclusion that the DoD inventory does not have flight safety problems
           with dimensionally nonconforming FSC fasteners and components.

DoD Fastener/Component Review
    The DoD review of FSC threaded fasteners and components conducted by the
    USD(AT&L) did not adequately examine the conformance of fasteners and
    components used by the Services and only relied on information from DLA and
    the Services. The review only sampled and tested 19 FSC threaded fastener
    NSNs in the Air Force inventory, and none of the FSC threaded fasteners
    available in the DLA, Army, or Navy inventories were tested. Instead, the DLA,
    Army and Navy submitted their purchasing and quality assurance procedures for
    keeping nonconforming FSC threaded fasteners and components out of the DoD
    inventories. However, those acquisition and quality assurance procedures were
    not verified or substantiated to determine that the procedures actually prevented
    nonconforming FSC threaded fasteners and components from entering DoD
    inventories. In addition, the review did not sample or test any FSC threaded
    component NSNs in the DLA and the Services inventories.

DoD Review Process
    Sample. The DoD review of FSC threaded fasteners and components was
    inadequate because DoD used the test results from a sample of 19 FSC threaded
    fastener NSNs that were in the Air Force inventory as of December 1998. The
    Air Force initially selected 46 FSC threaded fastener NSNs for testing, and did
    not consider any components for testing. Testing was not conducted on 23 of the
    selected NSNs because no inventory was available. Four duplicate NSNs were
    also discovered on the remaining 23 FSC threaded fastener NSNs that had
    inventory available. The 19 NSNs sampled only consisted of 436 fasteners that
    were tested by the Air Force laboratory at Warner Robins Air Force Base, or one
    of the two independent laboratories selected by DLA.




                                        3
The Air Force sample showed that 10 of the 19 NSNs tested, or 53 percent, had
FSC threaded fasteners in the NSN that did not conform with requirements.
Fasteners with test results outside of the pre-determined acceptable range
specified in MIL-S-8879C were determined not in conformance with
specifications. The Air Force Material Command stated that the test results were
provided to Air Force weapons systems chief engineers responsible for the NSNs.
All of the chief engineers concluded that the nonconformances were minor. In
response to the Air Force questions on form, fit, and function, three of the six Air
Force weapons systems chief engineers stated that they would not recommend
accepting the fasteners with the known deviations for use on their weapon
systems (T-38 jet trainer, F-5 fighter aircraft, UH-1N utility helicopter, and B-52
bomber aircraft). However, the Air Force Material Command review indicated
that the results would not affect the form, fit, or function for which the fastener
was intended and was suitable for use on their respective weapon systems. The
Air Force Material Command could not adequately support their conclusion or
provide documentation that the nonconformances did not affect the form, fit, or
function of the FSC threaded fasteners. See Appendix B for details on the Air
Force sample, testing plan, and results. In addition, DLA inventories were not
considered for sampling and testing, even though DLA purchased and managed
all of the Air Force FSC threaded fasteners and components.

Usage and Purchases of FSC Threaded Fasteners. The DoD uses 833 different
FSC threaded fastener NSNs. The Army uses 327, the Navy uses 320, and the Air
Force uses 350 FSC threaded fastener NSNs. DLA was responsible for the
procurement of about 742 or about 90 percent of the 833 FSC threaded fastener
NSNs that DoD used. The table below shows the number of FSC threaded
fastener NSNs purchased by DLA and the Services.

           Number of FSC Threaded Fastener NSNs Purchased by
                         DLA and the Services

                             DLA                   742

                             Army                   90

                             Navy                    1

                             Air Force               0

                             Total                 833

Quality Assurance Procedures. DoD based its conclusions, that DLA and the
Services quality assurance procedures were adequate for keeping nonconforming
FSC threaded fasteners and components out of the DoD inventories, on
unsupported information provided by DLA and the Services. DoD did not verify
the quality assurance procedures. DoD did not require and DLA and the Services
did not provide documentation that the procedures were adequate or operating as
intended.




                                     4
        DLA Quality Assurance Procedures. DLA provided the USD(AT&L)
with the acquisition and quality assurance procedures to be used to procure FSC
fasteners and components. DLA stated that it used prequalified sources from the
“Qualified Suppliers List Program.” In addition, DLA provided a summary of the
testing methods used to ensure only quality products were in DoD inventories.

DLA purchased about 523 out of the 742 FSC threaded fastener NSNs from
manufacturers and suppliers that were prequalified by DLA or the Services. The
Defense Contract Management Agency (DCMA) provides quality assurance
during the initial stages when a contractor is qualified by performing quality
checks of the contractor’s manufacturing processes. We found that there were no
scheduled reassessments of the prequalified manufacturers or suppliers by either
DLA or the Services.

The remaining 219 FSC threaded fastener NSNs were purchased by DLA from
manufacturers and suppliers that were not prequalified. DLA only conducted
preshipment testing on a selected basis for those manufacturers and suppliers. In
addition, DLA stated that they relied more on the integrity of the manufacturers’
process controls in lieu of end of the line testing to deliver FSC fasteners and
components that conformed to requirements. We concluded that DLA did not
provide DoD with any documentation that showed that these procedures were
adequate for preventing acceptance of nonconforming FSC threaded fasteners and
components. For the FSC threaded fasteners NSNs purchased by DLA and used
by the Services, the Services relied on DLA to provide them with conforming
FSC threaded fasteners.

Problems with DLA’s quality assurance over critical products were reported in an
Office of the Inspector General, DoD, Report No. D-2001-054, “Defense
Logistics Agency Product Verification Program,” February 21, 2001. The report
stated that DoD lacked sufficient assurance that some critical products would
perform as expected. The DLA supply centers did not consider product criticality
when DLA managed products were randomly selected for quality testing. The
report also stated that for two of the three defense supply centers, test failures
were not consistently investigated and required actions on test failures were not
always taken. As a result, the two defense supply centers allowed potentially
nonconforming products to remain available for issue.

        Army Quality Assurance Procedures. The Army procured 90 of the 833
FSC threaded fastener NSNs used by DoD. The Army provided the USD(AT&L)
with the quality assurance procedures they used to procure FSC threaded fasteners
and components. The Army stated that periodic on-site audits and inspections of
the contractors were conducted to verify the approved processes are maintained
and to verify that FSC threaded fasteners and components met requirements. The
Army FSC program required source inspection of 100 percent of all critical
elements to ensure that only conforming items were entered into the Army
inventory. The Army could not provide documentation showing that the testing
was completed, and stated that it was the responsibility of DCMA to ensure that
the contractors inspected all items before delivery.




                                    5
Review Conclusions
    DoD cannot adequately support its conclusion that the DoD inventory does not
    have flight safety problems with dimensionally nonconforming FSC fasteners and
    components. The review only included a limited test of FSC threaded fasteners in
    the Air Force inventory. None of the FSC threaded fasteners available in the
    DLA, Army, or Navy inventories were sampled or tested. The review did not
    include a sample or test of any FSC threaded component NSNs in the DLA and
    Services inventories. DoD should have verified the quality assurance procedures,
    including source inspection procedures, submitted by DLA and the Services to
    determine that the procedures actually prevented nonconforming FSC threaded
    fasteners and components from entering DoD inventories. In addition, DoD
    should have documented the justifications for accepting tested nonconforming
    flight safety critical threaded fasteners and components.

Summary
    The DoD review of FSC threaded fasteners and components was inadequate to
    determine if significant quantities of nonconforming items were in DoD
    inventories. Also the DoD review was not adequate to determine whether
    nonconforming items presented safety hazards to operators of DoD weapons
    systems. To adequately determine whether DoD has problems with
    nonconforming FSC threaded fasteners and components, DoD should test a
    sample from the universe of FSC threaded fastener and component NSNs and
    include inventories from DLA and the Services. In addition, DoD should
    establish a uniform sampling and testing plan that is both reliable and projectable
    throughout DoD. Also, because of the uncertainty of the DLA and Services
    quality assurance procedures, DoD should independently verify their adequacy for
    excluding nonconforming items from DoD inventories.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics charter a working group with a time-phased plan
    to:

               1. Develop uniform sampling and testing plans for determining
    sampling methods, testing procedures, and reliable and projectable results
    for use throughout DoD.

              2. Test samples of flight safety critical threaded fasteners and
    components to determine the extent of nonconforming items in DoD
    inventories.




                                         6
            3. Document the justifications for accepting tested nonconforming
flight safety critical threaded fasteners and components. The justification
should include whether the part should be measured to a different
specification or whether the part is no longer flight safety critical.

Management Comments. The Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics nonconcurred and stated that the Services,
Defense Logistics Agency and Defense Contract Management Agency reviewed
all reported flight incidents and accidents, as far back as 10 years, Product Quality
Deficiency Reports and Government-Industry Data Exchange Program Alerts.
The review of historical data did not identify a single incident or deficiency
related to thread geometry of flight safety critical fasteners or components.
Further, there was no basis at this time to expend scarce resources on testing
additional fasteners or components.

Audit Response. We disagree with the Principal Deputy Under Secretary of
Defense for Acquisition, Technology, and Logistics position. We believe the
review of historical data of incident reports is not sufficient when 10 of the 19
national stock numbers tested, or about 53 percent, had nonconforming flight
safety critical fasteners. This is a nonconformance rate that should be of concern
when it relates to flight safety critical parts. The Defense Logistics Agency was
responsible for procurement of about 90 percent of flight safety critical fastener
national stock numbers that DoD used. The Defense Logistics Agency had
procured the Air Force national stock numbers tested that had nonconforming
flight safety critical fasteners. Further, only 19 of 833 (2 percent) of the national
stock numbers were tested. The review did not sample or test any flight safety
critical threaded fasteners in the Defense Logistics Agency, Army, or Navy
inventories and no flight safety critical component national stock numbers were
tested. The Defense Logistics Agency stated to us that they relied more on the
integrity of the manufacturers’ process controls in lieu of end of the line testing to
deliver flight safety critical fasteners and components that conformed to all
contractual requirements. There is no assurance that the remaining flight safety
critical fastener national stock numbers in the DoD inventory do not have the
same rate of nonconforming parts.

The Air Force review reported that the weapon systems chief engineers stated that
the nonconformances would not affect the form, fit, or function for which the
fastener was intended and was suitable for use on their respective weapon
systems. However, our review of the chief engineers responses to the Air Force
letter on form, fit, and function on nonconforming fasteners showed that three of
the six Air Force weapons systems chief engineers (related to the T-38 jet trainer,
F-5 fighter aircraft, UH-1N utility helicopter, and B-52 bomber aircraft) would
not recommend accepting the fasteners for use on their weapon system. The
responses from the other three Air Force weapons systems chief engineers stating
that they would use the nonconforming fasteners indicates that some evaluation is
needed to determine whether the part should be measured to a different
specification or determine whether the part is no longer flight safety critical. We
clarified the intent of Recommendation 3. based on Principal Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics comments. We
request that the Principal Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics reconsider its position and provide additional
comments when responding to the final report.


                                      7
            4. Analyze the Defense Logistics Agency and the Services
adequacy of the acquisition and quality assurance procedures for accepting
flight safety critical threaded fasteners and components from manufacturers
and suppliers.

Management Comments. The Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics partially concurred stating that instead of
establishing a separate group, they will monitor the Joint Aeronautical
Commanders Group activities related to acquisition and quality assurance
procedures for accepting flight safety critical items. The Principal Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics would consider
changes at a later date if the Joint Aeronautical Commanders Group recommends
changes to acquisition and quality assurance procedures and the need for
additional testing.

Audit Response. We believe that the Principal Deputy Under Secretary of
Defense for Acquisition, Technology, and Logistics comments are partially
responsive in that a separate working group does not have to be established for
this area. However, we believe that the identified error rate for nonconforming
flight safety critical fasteners warrants that the Principal Deputy Under Secretary
of Defense for Acquisition, Technology, and Logistics require that the Joint
Aeronautical Commanders Group analyze and test the adequacy of the acquisition
and quality assurance procedures for accepting flight safety critical threaded
fasteners and components from manufacturers and suppliers. We request that the
Principal Deputy Under Secretary of Defense for Acquisition, Technology, and
Logistics reconsider its position and provide additional comments when
responding to the final report.




                                     8
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The audit focused on the DoD “Joint Aerospace Threaded
    Fasteners/Components Review,” February 15, 2000. We also reviewed the Air
    Force “Examination of Threaded Fasteners Identified as Flight Safety Critical, A
    Joint DLA/USAF Test Program,” February 1, 2000, and other related
    documentation from DLA, and the Services. We interviewed cognizant officials
    at USD(AT&L), DLA, DCMA, the Army Aviation and Missile Command, the
    Navy Inventory Control Point, Philadelphia, and the Air Force Materiel
    Command.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following goal
    and performance measure.

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure (01-DoD-2). FY 2001
           Subordinate Performance Goal 2.4: Meet combat forces' needs smarter
           and faster, with products and services that work better and cost less, by
           improving the efficiency of DoD acquisition processes
           (01-DoD 2.4).

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Inventory Management high-risk area.

    Use of Computer-Processed Data. We did not rely on computer processed data
    to achieve the audit objectives.

    Use of Technical Assistance. We obtained technical assistance from the
    Technical Assessment Division and the Quantitative Methods Division of the
    OAIG-AUD. We requested the Technical Assessment Division to review the Air
    Force test results and determine whether nonconformances found in the lots tested
    represented a significant nonconformance rate when related to flight safety critical
    parts. We requested the Quantitative Methods Division to review the Air Force
    sample selection methodology.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from April 2000 through January 2001 in accordance with auditing
    standards issued by the Comptroller General of the United States as implemented
    by the Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an


                                         9
    opinion on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contact During the Audit. We visited and contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    The Inspector General, DoD, and the Inspector General, Department of
    Transportation have conducted reviews related to quality assurance issues.
    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil.

    Inspector General, DoD

    Inspector General, DoD, Report No. D-2001-054, “Defense Logistics Agency
    Product Verification Program,” February 21, 2001.

    Inspector General, Department of Transportation

    Report No. AV-2001-003, “Oversight of Manufacturers’ Quality Assurance
    Systems for Threaded Fasteners,” October 11, 2000.




                                        10
Appendix B. Air Force Test Plan, Sample, and
            Results
   In response to allegations to the USD(AT&L) that the DoD acquisition and
   quality assurance procedures allow significant amounts of dimensionally
   nonconforming FSC threaded fasteners into the DoD inventory, resulting in flight
   safety hazards, USD(AT&L) tasked the Air Force in April 1998, to review its
   procedures for managing flight safety critical fasteners. The Air Force sampled
   and tested FSC threaded fastener inventories at repair depots located at Tinker Air
   Force Base, Oklahoma; Hill Air Force Base, Utah; Kelly Air Force Base, Texas;
   McClellan Air Force Base, California; and Warner Robins Air Force Base,
   Georgia. The Air Force did not sample or test FSC threaded fasteners or
   components at DLA distribution depots or inventories at Air Force non-repair
   depot facilities.

   Test Plan. DLA purchased and managed all FSC threaded fasteners and
   components for the Air Force and maintained them in the DLA inventory until
   they were issued to Air Force units. The Air Force used the DLA Product
   Verification Program test plan for testing the FSC threaded fasteners. The tests
   included, but were not limited to, tests for hardness, thread geometry, and
   coatings, and required a minimum of 20 fasteners to be tested for each NSN. The
   minimum 20 fastener requirement was determined by a statistical model that DLA
   developed for use in random product testing.

   Test Sample. The Air Force used its Wholesale and Retail Receiving and
   Shipping System (D035K Data Base System) to determine the locations and
   quantities of fastener inventories at Air Force Depots. The Air Force initially
   identified 93 different NSNs that showed FSC fasteners inventories on hand at Air
   Force depots. However, the Air Force then determined that only 46 of the 93
   NSNs had the minimum 20-fastener requirement established. Subsequently,
   when the Air Force requested depot personnel to sample 20 fasteners for each of
   the 46 NSNs, they found that only 23 NSNs had any quantities of FSC threaded
   fasteners, and 4 of those NSNs were duplicate NSNs, resulting in 19 different
   types of FSC threaded fastener NSNs available for testing. The Air Force tested
   the 19 NSNs totaling 436 FSC threaded fasteners (3 NSNs had more than 20
   fasteners tested).

   The Air Force identified the universe of Air Force FSC threaded fasteners at the
   five repair depots. The Air Force selected a sample based on part availability
   with a minimum of 20 pieces at the repair depots. The remaining 23 NSNs were
   evaluated by reviewing original certification test documents dated between April
   1992 and June 1999, provided by DLA.




                                       11
Test Results. The 19 NSNs with sufficient quantities of FSC threaded fasteners
were physically tested at the government laboratory at Warner Robins Air Force
Base, Georgia; or at two commercial laboratories selected by DLA, Atlas Testing
Laboratories, Los Angeles, California; or MMN Laboratories, Huntington Beach,
California. According to the test plan, all measurements should have been
calculated in accordance with MIL-S-8879C.

The following table shows that 10 of the 19 NSNs tested, or about 53 percent, had
FSC threaded fasteners that were determined to be non-conforming with the
requirements of MIL-S-8879C. We contacted the laboratory personnel at Warner
Robins Air Force Base to determine how nonconforming FSC fasteners and
components were accepted. The personnel stated that they determined a fastener
acceptable when the test results were within the pre-determined acceptable
requirements range specified in MIL-S-8879C. Items outside of that range were
determined unacceptable to specifications.




                                   12
                              FSC Threaded Fasteners Tested

                      National            Items        Nonconforming        Nonconforming
 Sample No.         Stock No. 1/          Tested       Items in Lot 2/         Samples

    CF-3       5306-00-068-0038             20               Yes                  18
    CF-4       5306-00-141-4513             20               Yes                  19
    CF-5       5306-00-150-3350             20               Yes                   1
    CF-6       5306-00-180-1739             20               Yes                   3
    CF-8       5306-00-208-3649             20               Yes                   2
    CF-10      5306-00-242-9262             20               No                    0
    CF-11      5306-00-283-0169             20               No                    0
    CF-13      5306-00-432-6114             20               No                    0
    CF-20      5306-00-901-4307             20               Yes                   1
    CF-21      5306-00-912-6805             20               Yes                  18
    CF-22      5306-00-912-6805    3/       11               No                    0
    CF-25      5306-01-023-9009             20               No                    0
    CF-28      5310-00-088-0552             20               No                    0
    CF-29      5310-00-123-2499             20               Yes                   1
    CF-32      5310-00-176-8112             20               Yes                  12
    CF-33      5310-00-176-8112    4/       20               Yes                  12
    CF-34      5310-00-176-8112    4/       20               Yes                  11
    CF-36      5310-00-638-5730             20               Yes                  11
    CF-37      5310-00-638-5730    5/        5               No                    0
    CF-39      5310-00-854-0675             20               No                    0
    CF-40      5310-00-882-0903             20               No                    0
    CF-41      5310-00-904-5786             20               No                    0
    CF-46      5310-01-274-2905             20               No                    0

    Total                                  436                                   109


1/ 23 NSNs with 4 duplicate NSNs equals 19 different NSNs.
2/ 12 lots had nonconforming parts however 2 lots were duplicate NSNs resulting in 10
   different NSNs with nonconforming parts or about 53 percent (10/19).
3/ Duplicate NSN with CF-21
4/ Duplicate NSN with CF-32
5/ Duplicate NSN with CF-36




                                          13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          15
Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics Comments




                       17
18
19
Final Report
 Reference




Revised




Revised




Revised




Deleted




               20
     Final Report
      Reference




     Revised


     Revised




     Revised




     Revised




21
Final Report
 Reference




Revised




               22
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

          Paul J. Granetto
          Joseph P. Doyle
          Galfrid Orr
          Suk Webb
          Monelle Riviere
          Kenneth Stavenjord
          Chandra Sankhla
          Frank Sonsini
          Lusk Penn
